             March 12, 2003

             MEMORANDUM

             FOR:           Larry Garber, Director, USAID/West Bank-Gaza

             FROM:          David H. Pritchard, Acting RIG/Cairo /s/

             SUBJECT:       Risk Assessment of USAID-financed Assistance to West
                            Bank and Gaza (Report No. 6-294-03-001-S)

             This memorandum presents the results of our Risk Assessment of USAID-
             Financed Assistance to West Bank and Gaza. This is not an audit report
             and does not contain any recommendations for your action; however it
             contains suggestions for your consideration. Management comments are
             included in their entirety in Appendix II. I appreciate the cooperation and
             courtesy extended to our staff during the risk assessment.



Background
             Base funding for the USAID/West Bank-Gaza program is about $75
             million per year. However, during fiscal year 2000 through fiscal year
             2002, the program received $400 million as a result of the Wye River
             agreement, an agreement to facilitate implementation of prior Israeli and
             Palestinian agreements and carry out their reciprocal responsibilities,
             including those relating to further redeployments and security.

             Since January 2001, USAID/West Bank-Gaza has operated under an
             approved transition plan. The plan’s purposes are to support the
             successful conclusion of a final status agreement between the Palestinians
             and the Israelis and to lay the economic and political foundations for a
             viable, stable Palestinian entity in the West Bank and Gaza.

             Implementation of the plan was disrupted at the end of September 2000 by
             the outbreak of the Al Aqsa Intifada and the subsequent sustained violence
             and unrest throughout the West Bank and Gaza. These events have also
             taken their toll on the Mission’s project oversight as travel of U.S. staff is
             limited by security concerns. For periods of time, foreign national staffs
                                                                                              1
living in the West Bank and Gaza have been unable to travel to the
USAID office in Tel Aviv and, at times, contractor staff has not been able
to travel to project sites. Further, since the September 2000 intifada, the
Office of Inspector General (OIG) has curtailed performance audit
coverage of the West Bank and Gaza program due to security
considerations. Due to the level of funding and the implementation
conditions described above, the Mission, the OIG, and congressional staff
have envisioned more oversight and more detailed accountability for
USAID’s West Bank and Gaza program activities, such as:

1. Concurrent audits (audits conducted while the project is still on-going)
   of some high risk programs with the objective of reporting on the
   progress of the project and verifying the accuracy of the Implementing
   Partner’s reporting to the Mission.

2. Audits of local West Bank and Gaza operations of U.S.-based
   nonprofit organizations will be contracted through RIG/Cairo using
   local audit firms. RIG/Cairo will inform IG/A/FA of this work and
   IG/A/FA will inform the U.S.-based nonprofit that its primary auditors
   should consider this work in connection with the annual Single Audit
   conducted in accordance with Office of Management and Budget
   (OMB) Circular A-133.

3. Audits of local West Bank and Gaza operations of USAID contractors
   will be contracted through RIG/Cairo using local audit firms.
   RIG/Cairo will inform IG/A/FA of this work. IG/A/FA will inform
   M/OP/PS that this work is being performed and that these audits
   should be incorporated by Defense Contract Audit Agency (DCAA)
   into the contractors' annual incurred cost audits.

4. Extending audit coverage to recipients and sub-recipients that spend
   less than A-133’s $300,000 per year audit threshold. This work is to
   be contracted through RIG/Cairo and performed by CPA firms that
   operate in the West Bank and Gaza region.

5. Increasing the depth of performance audit coverage through agreed-
   upon-procedures reviews to address project implementation at the
   recipient level rather than just at the strategic objective level.

The Office of Management and Budget’s circular No. A-123 states that
managers are responsible for the quality and timeliness of program
performance, and must also take proactive measures to (1) assess the
adequacy of management controls in programs and operations and (2) take
corresponding corrective action when needed improvements are identified.
The General Accounting Office’s “Standards for Internal Control in the
Federal Government” notes that internal controls should provide reasonable


                                                                              2
             assurance that agency objectives are being achieved, operations are effective
             and efficient, and assets are safeguarded against loss.
             This review focused on risk assessment. Regional Inspector General/Cairo
             performed the review at the Mission’s request to determine (1) USAID’s
             current and planned activities and funding levels for the West Bank and
             Gaza, (2) who are the U.S. and local implementers of USAID/West Bank-
             Gaza activities, and (3) the significant risk areas that should be covered in
             future audits.

Discussion   USAID/West Bank-Gaza provides development assistance to the West Bank
             and Gaza through six strategic objectives (SO) and 39 projects under those
             objectives.

                    SO 1 - Extended private sector economic opportunities.
                    SO 2 - Greater access to and more effective use of scarce water
                            resources.
                    SO 3 - More responsive and accountable governance.
                    SO 5 - Higher education and training.
                    SO 7 - Healthier Palestinian families.
                    SO 8 - Improved community services.

             This review assigned an audit priority of high, medium, or low for each of
             the Mission’s projects. A higher priority simply indicates that the particular
             activity is more vulnerable to its objectives not being achieved or
             irregularities occurring, and should be a high audit priority. It does not
             imply that irregularities are actually occurring. Appendix I describes in
             detail our risk assessment scope and methodology.

             We identified a universe of 39 projects that we included in our audit
             strategy. Some large projects, which have not yet been awarded, were
             included because of the high dollar amount of the project. Other projects
             that have ended were excluded from the audit strategy.




                                                                                              3
Of the 39 projects reviewed, we concluded that 7 projects were rated as
high priority for audit, 23 projects were rated medium and 9 projects rated
low.

Audit Priority and Number of Projects per Strategic Objectives
                            Total     Number      Number      Number of    Obligations   Expenditure
                           Number     of High        of         Low        06/30/2002     06/30/2002
     Strategic Objective      of      Priority    Medium       Priority
                           Projects   Projects    Priority     Projects
                                                  Projects
    1 – Extended
                             11          2           6            3         37,749,274    26,852,786
    private sector
    economic
    opportunities
    2 – Greater access
                              9          2           7                      89,066,003    58,671,783
    to and more
    effective use of
    scarce water
    resources
    3 – More
                              6          2           3            1         44,069,359    33,143,070
    responsive and
    accountable
    governance
    5 – Higher
                              3          1           1            1         9,188,354     5,546,765
    Education &
    Training
    7 – Healthier
                              6                      2            4         25,050,645    10,842,427
    Palestinian families
    8 – Improved
                              4                      4                     120,472,646    62,752,825
    community
    services
                             391         7          23            9        325,596,281   197,809,656
    Total

See Appendix III for more detail on the risk assessments.

In addition to the risks that projects may not be implemented as planned, we
identified 2 USAID/West Bank-Gaza direct awards and 121 sub-awards
totaling $16.5 million that were awarded to non-U.S. organizations. Many
of these awards are not currently audited under recipient contracted audits or
agency contracted audits because they fall under the audit threshold of
$300,000. However, the Mission has an audit plan to audit all foreign
recipients’ awards over $300,000 and other select awards over a $100,000
threshold. The following table shows the number of awards to non-U.S.
organizations by Strategic Objective.



1
  Each of the 39 individual project risk assessments was provided separately to USAID/West
Bank-Gaza. These individual risk assessments identify risks to project implementation and also
those controls that mitigate and reduce these risks. The Mission requested individual assessments
by project, which may assist them in periodically updating its project implementation risks and
revising its audit plan as needed.
                                                                                                    4
Mission Direct Awards and Sub-awards to Non-U.S. Organizations by
Strategic Objectives

                                        Total                Total
                                     Number of         Dollar amount of
         Strategic Objective       Awards identified        awards
  1 – Extended private sector
  economic opportunities                  2               $3,991,901
  2 – Greater access to and more
  effective use of scarce water
  resources                               0                   0
  3 – More responsive and
  accountable governance                  53               5,106,340
  5 – Higher education and
  training                                0                   0
  7 – Healthier Palestinian
  families                                9                2,148,729
  8 – Improved community
  services                                59               5,278,681

  Total                                  123              $16,525,651

For fiscal year 2002, the Mission’s plan included auditing 8 out of the 123
awards identified above with obligations totaling $9.4 million.

Using the results of the risk assessments, RIG/Cairo, in collaboration with
the Mission, plans to implement a preliminary audit strategy for providing
more oversight over USAID/West Bank-Gaza program activities. In
developing the strategy, we considered the following types of audits or
reviews. Further, we decided that due to security conditions in the West
Bank and Gaza, local audit firms under the oversight of RIG/Cairo should do
these audits.

1. Financial Audits of Contractors and Grantees - These audits would include
   in-country costs for all awards to an entity (contracts, grants, and
   cooperative agreements) and would also involve testing of transactions for
   in-country sub awardees. Audits of U.S.-based nonprofit organizations
   and USAID contractors will be contracted through RIG/Cairo using local
   audit firms. All construction contracts related to water resources are fixed
   price contracts and therefore not subject to financial audits. Also, personal
   services contracts, purchase orders, Participating Agency Service
   Agreements (PASAs), and awards to UN and Public International
   Organizations would be excluded.
2. Agreed-Upon-Procedures Reviews - These performance reviews
   would address individual project activities, individual recipients, or
   specific issues to maintain a degree of surveillance over reported
   performance in achieving results.
3. Concurrent Audits - These would be either financial or performance
   audits that would usually start near the beginning of the project or
   activity. Audit results would be periodically reported throughout the
   implementation period. Specific audit objectives would be developed
                                                                               5
                 during the audit planning process. Generally, performance audit
                 objectives would report on the progress of the projects and verify the
                 accuracy of the Implementing Partner’s reporting to the Mission.
                 Financial audits would generally report on whether costs are
                 allowable, allocable and reasonable.
              4. Quality Control Reviews - These reviews would assess the auditing
                 procedures used by the local auditing firms conducting the above
                 audits or reviews. RIG/Cairo would perform the quality reviews.



              We suggest that USAID/West Bank-Gaza:
Conclusion
              1. in collaboration with RIG/Cairo, finalize and implement a plan to audit all
                 projects, starting with high priority projects and
              2. formalize a system for regularly assessing the risks it faces in implementing
                 projects and revising the audit plan accordingly.

              Based on the assessments of risk, we suggest that the Mission first focus on
              finalizing a plan to audit the seven high priority projects shown below.

                 1.   Sustainable Microenterprise Industry
                 2.   Emergency Financial Services
                 3.   West Bank Bulk Water Supply Program
                 4.   Village Water and Sanitation Program
                 5.   Strengthening Civil Society Organizations (TAMKEEN)
                 6.   Higher Education Support Initiative (HESI)
                 7.   Palestinian Legal system


              The management of USAID West Bank/Gaza agreed with our risk
              assessments and suggestions.


 Management   USAID West Bank/Gaza appreciated the opportunity to comment on the
 Comments     report. The Mission worked closely with us during the risk assessment and
              had provided us with written comments to the discussion draft report. The
              Mission had also discussed concerns and issues during our meeting at the
              Mission in December.

              Since we adequately addressed the Mission’s previous comments and
              concerns, the Mission did not have any additional substantive issues to
              address at this time. Therefore, the Mission concurred with the risk
              assessment and the report’s suggestions and looked forward to finalizing and
              implementing the audit plan.



                                                                                                 6
                                                                                           Appendix I




Scope and     Scope
Methodology
              Regional Inspector General/Cairo’s risk assessment of USAID/West Bank-
              Gaza’s strategic objectives and projects considered all major projects that
              were active as of March 31, 2002. The risk assessment fieldwork was
              conducted at the USAID office in Tel Aviv, Israel from August 11 to August
              29, 2002, and from December 1 to December 5, 2002.

              Methodology

              We interviewed officials and reviewed relevant documentation on the
              strategic objective activities performed by USAID/West Bank-Gaza. These
              discussions and documents covered background, organization,
              management, budget, staffing responsibilities, prior reviews, internal
              controls, and vulnerabilities as we considered necessary to gain an
              understanding of the actual and potential problems in implementing
              projects.

              We determined risk exposure for all projects in each of USAID/West Bank-
              Gaza’s strategic objectives, e.g., the likelihood of significant abuse, illegal
              acts, misuse of resources, failure to achieve program objectives, and
              noncompliance with regulations and management policies. We assessed
              overall risk as high, moderate, or low. A higher risk exposure simply
              indicates that the particular function is more vulnerable to its program
              objectives not being achieved or irregularities occurring. We considered the
              following key areas in assessing risk:

              1. significance and sensitivity;
              2. susceptibility of failure to attain program goals, noncompliance with
                 regulations, inaccurate reporting, or illegal or inappropriate use of assets or
                 resources;
              3. management actions to mitigate the implementation risks identified by
                 strategic objective teams;
              4. competence and adequacy of number of personnel;
              5. relevant internal controls; and
              6. what is already known about internal control effectiveness.

              Our risk assessments of USAID/West Bank-Gaza’s strategic objectives have
              the following limitations in their application.

              •       First, we assessed risk at the project level, not at the strategic
                      objective level.


                                                                                                    7
                                                                   Appendix I



•   Second, we assessed risk only. Our risk assessments were not
    sufficient to make determinations of the effectiveness of internal
    controls for major functions. Consequently, we did not generally
    determine (a) the adequacy of internal control design, (b) if controls
    were properly implemented, and (c) if transactions were properly
    documented.

•   Third, higher risk exposure assessments are not definitive indicators
    that program objectives were not being achieved or that irregularities
    were occurring. A higher risk exposure simply indicates that the
    particular function is more vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator
    of management capability due to the fact that risk assessments
    consider both internal and external factors, some being outside the
    span of control of management.




                                                                             8
                                                                                       Appendix II


                      U. S. Agency for International Development
                      West Bank & Gaza Mission
                      American Embassy
                      71 Hayarkon Street, Tel Aviv
                      Tel: 972-3-511-4848/ Fax: 972-3-511-4888
                      Website: http://www.usaid.gov/wbg/

                                       Memorandum
DATE:         February 13, 2003

TO:           David H. Pritchard, Acting RIG/Cairo

FROM:         Larry Garber, Mission Director /s/

SUBJECT:      Draft Report -Risk Assessment of USAID-Financed Assistance to West
              Bank & Gaza (Report No. 6-294-02-xxx-S)


Mission appreciates the opportunity to comment on subject report. We have worked
closely with your office on the risk assessment review over the last six months both
during RIG/C visits and in response to previous drafts. We provided written comments
to the discussion draft report and discussed concerns and issues with your office at our
meeting at the Mission in December. We appreciate that these comments were addressed
and incorporated into the report.

Since you have adequately addressed our previous comments and concerns, we do not
have any additional substantive issues to address at this time. Therefore, we concur with
the risk assessment and the report suggestions and look forward to finalizing and
implementing the audit plan.

We have noted a couple of minor points pertaining to the report presentation which
follows:

-   In Appendix II for SO 2 please note that the second page for this SO shows SO 1.
     This should be SO2.
-    In Appendix II for SO 3 there are two Program Components and Risk Rating
     sections. These should be combined.

The Mission greatly appreciates the effort and guidance your office has provided during
your risk assessment review. We look forward to working collaboratively to address the
Mission's exposure of our project activities and to implement the report's suggestions.


Clearance: William Hammink, Deputy Director /s/

                                                                                                 9
                                                                                              Appendix III



Risk
Assessments   Extended Private Sector Economic Opportunities

                               Strategic Objective 1                              Risk Exposure
              Sustainable Microenterprise Industry                                     High
              Emergency Financial Services (Save the Children)                         High
              Emergency Financial Services (CHF)                                    Moderate
              Banking Supervision                                                   Moderate
              Promoting Industrial Zones and Investment                             Moderate
              Mobilization (PRIZIM)
              Market Access Program                                                    Low
              PALTRADE                                                              Moderate
              Accounting and Auditing                                                  Low
              Capital Markets Development Initiative                                Moderate
              Agribusiness Support Initiative                                          Low
              Palestinian Enterprise Revitalization (DIA)                           Moderate
                                                        06/30/2002
                     Obligations                       Expenditures                Pipeline
                     37,749,274                        26,852,786                  10,896,488
              Implementing Partners:
              Chemonics International, Save the Children, Cooperative Housing Foundation, Barents
              Group International, The Services Group (TSG), Development Alternatives, Inc. (DAI),
              Palestinian Trade Center – Paltrade, Deloitte Touche Tohmatsu, Financial Markets
              International (FMI), PASA with USDA
              Program Components and Risk Rating
              Sustainable Microenterprise Industry is to produce a sustainable microfinance industry in
              the West Bank and Gaza. We assessed the risk high because of the difficulty in providing
              new financial services in the current economic climate.

               Emergency Financial Services is to continue and expand its current Group Guarantee
               Lending and Saving programs. We assessed the risk high because the portfolio quality has
               deteriorated within current the economic climate.

               Emergency financial services, CHF seeks to attain the activity’s purpose by expanding
               Gaza’s Home Improvement Loan Program. We assessed the risk moderate because of low
               dollar amount of loan size, high demand and past repayment experience.

               Banking Supervision Program seeks to strengthen the banking supervision capabilities. We
               assessed the risk moderate because much of the project was technical assistance and the
               project was near completion.

               Promoting Industrial Zones and Investment Mobilization (PRIZIM) gives institutional
               support to the Palestinian Industrial Estate and Free Zone Authority. We assessed the
               moderate because the project was rescoped after construction activities are put on hold.

               Market Access Program seeks to expand economic growth through increasing the
               competitiveness, as well as domestic and export market share of Palestinian products. We
               assessed the risk low because much of the project was technical assistance to comply with
               international standards and an outside evaluation was recently completed.




                                                                                                           10
                                                                                 Appendix III


            Strategic Objective 1
Program Components and Risk Rating

PALTRADE’s main focus is on increasing the volume and value of exports from the West
Bank and Gaza. We assessed the risk moderate because of support from other donors.

Accounting and Auditing program is involved with the development of an Accounting
Society; development of the Auditing Association; curriculum development; and training.
We assessed the risk low because of adoption of accounting standards and the project was
near completion

Capital Markets Development Initiative is to develop the legal and regulatory framework
for non-bank financial institutions. We assessed the risk moderate because efforts were
focused on adopting best practices even though drafted legislation was not adopted.

Agribusiness Support Initiative provides technical assistance services to the Palestinian
agriculture sector and to support agribusiness development, which will facilitate increased
agribusiness trade and investment opportunities. We assessed the risk low because USDA
submitted a new work plan for implementation after the project was put on hold.

Palestinian Enterprise Revitalization (DIA) is to stabilize existing enterprises, revitalize
languishing businesses and stimulate the creation of new businesses to contribute to economic
growth and job creation. We assessed the risk moderate because this is a new project.




                                                                                                11
                                                                                     Appendix III


Greater Access to and More Effective Use of Scarce Water Resources
                  Strategic Objective 2                                Risk Exposure
Gaza Desalination Plant                                                     Moderate
Gaza Regional Water Carrier                                                 Moderate
Gaza Coastal Aquifer Management                                             Moderate
West Bank Bulk Water Supply Program                                            High
Village Water and Sanitation Program                                           High
Emergency Water Pipeline Ein Sultan                                         Moderate
Emergency Water Pipeline Jalameh                                            Moderate
Emergency Water Operations Center                                           Moderate
Gaza Demonstration Projects                                                 Moderate
                                           06/30/2002
       Obligations                       Expenditures                   Pipeline
       89,066,003                        58,671,783                     30,394,220
Implementing Partners: Metcalf & Eddy, Camp, Dresser & McKee, Contrack International
CH2MHill, Environmental Health Project
Program Components and Risk Rating
Gaza Desalination Plant seeks to augment the water supply in Gaza and prevent further
deterioration to the aquifer from over extraction and seawater intrusion. This project is still in
the planning stages. Even though the contract for this project has not yet been awarded, we
assessed the risk moderate because of the proposed high dollar amount of the project.

 The Gaza regional water carrier is to deliver desalinated and other water to local
 distribution points within Gaza. Even though the contract for this project has not yet been
 awarded, we assessed the risk moderate because of the proposed high dollar amount of the
 project.

 Gaza Coastal Aquifer Management Program (CAMP) is to manage the limited capacity
 coastal aquifer system to exploit fully, in an environmentally safe manner, its utilization as a
 sustainable source of water supply. We assessed the risk moderate because the much of the
 project has been completed.

 West Bank Bulk Water Supply Program is constructing production wells, transmission
 pipelines, and monitoring wells in the West Bank in accordance with the Master Plan
 developed under Water Resources Program Phase I and adopted by the Palestinian Water
 Authority (PWA). We assessed the risk high because the project is a high dollar project with
 a completion date in early 2003.

 Village Water and Sanitation Program purpose is to provide safe and sustainable water and
 sanitation services to rural towns in the West Bank. We assessed the risk high because much
 of the project is on hold.

 Emergency Water Pipeline Ein Sultan purpose is to respond to emergency water needs in
 Ein Sultan Refugee Camp and connect new source of water from Duyuk Spring. We assessed
 the risk moderate because of the emergency nature of the project.

 Emergency Water Pipeline Jalameh purpose is to respond to emergency water needs in
 Jalameh Village area and connect new source of water for northern Jenin. We assessed the
 risk moderate because of the emergency nature of the project.




                                                                                                     12
                                                                                 Appendix III


               Strategic Objective 2
Program Components and Risk Rating
Emergency Water Operations Center purpose is to increase water security in the West
Bank and Gaza by repairing damaged infrastructure, replacing depleted stocks, and providing
equipment essential to emergency preparedness, especially in response to military damages in
the West Bank. We assessed the risk moderate because of the large dollar amount of
commodities involved.

Gaza Demonstration Projects purpose is to provide a way for the PWA to measure well
discharge from the Agricultural wells, to better understand the patterns and rates of
withdrawal from these wells and set a framework for the future introduction of agricultural
water tariff. We assessed the risk moderate because the much of the project is technical
assistance.




                                                                                               13
                                                                                   Appendix III


More Responsive and Accountable Governance
                   Strategic Objective 3                                  Risk Exposure
 Strengthening Civil Society Organizations                                      High
 TAMKEEN (Chemonics)
 Civil Society (PASSIA)                                                         Low
 Civil Society (IRI)                                                         Moderate
 Palestinian Legislative Council (ARD)                                       Moderate
 Rule of Law (DPK)                                                              High
 Rule of Law (AMIDEAST)                                                      Moderate
                                           06/30/2002
         Obligations                      Expenditures                     Pipeline
         44,069,359                       33,143,070                       10,926,289
 Implementing Partners: Chemonics International, The Palestinian Academic Society for the
 Study of International Affairs (PASSIA), International Republican Institute (IRI), World
 Learning, Associates in Rural Development, Inc. (ARD), DPK Consulting, Inc., AMIDEAST
 Program Components and Risk Rating
 Strengthening Civil Society Organizations (TAMKEEN) provides grants to Palestinian
 civil society organizations for programs to strengthen the Palestinian democratic process by
 advocacy across sectors including health, education, etc. We assessed the risk high because
 the program is relatively new, is projected to increase in size, and there are large numbers of
 sub-awards to administer.

 Civil Society (PASSIA) trains civil society leaders in policy analysis, communication skills,
 strategic planning, management and conflict resolution. We assessed the risk low because
 this is a direct cooperative agreement to a think tank which is audited annually.

 Civil Society (IRI) provides resources and technical assistance to two Palestinian civil
 society organizations and is expected to enhance their ability to effect positive change in
 Palestinian policies through the provision of objective and timely information and policy and
 public opinion analysis to policy makers. We assessed the risk moderate because activities
 were suspended once under this cooperative agreement.

 Palestinian Legislative Council (ARD) project seeks to strengthen the Palestinian Council
 (PC) by working with elected members and staff, related executive branch units and
 ministries, and civil society. We assessed the risk moderate because USAID plans to do an
 evaluation and the program is ending.

 Rule of Law (DPK) is to develop the elements of an effective Palestinian Legal System. The
 program is providing training via video conferencing even though security concerns make it
 difficult for some partners to devote much attention to reform programs. We assessed the risk
 high because the Strategic Objective team has not had previous experience with the two sub-
 awardees.

 Rule of Law (AMIDEAST) rule of law project seeks to improve the quality of legal services
 in the West Bank and Gaza by increasing the capacity of Palestinian lawyers to contribute to
 the rule of law, and to protect the rights and freedoms of parties in civil and criminal cases.
 The project was cancelled after spending $2 million. We assessed the risk moderate because
 these expenditures will be audited under the A-133 program.




                                                                                                   14
                                                                                 Appendix III


Higher Education and Training
                 Strategic Objective 5                                 Risk Exposure
Higher Education Support Initiative (HESI)                                  High
Arab American University of Jenin                                           Low
University Linkages (UPLINK)                                              Moderate
                                           06/30/2002
       Obligations                       Expenditures                   Pipeline
        9,188,354                        5,546,765                      3,641,589
Implementing Partners: Academy for Educational Development, Utah State University,
The Association Liaison Office, World Learning-AMIDEAST
Program Components and Risk Rating
Higher Education Support Initiative (HESI) focuses on the immediate needs of local
Palestinian higher education institutions and local student body by providing local
undergraduate (2 & 4 year) scholarships to talented and needy students. We assessed the risk
high because students may delay their return from the U.S. due to the economic conditions in
West Bank and Gaza thus undermining program goals.

Arab American University of Jenin provides administrative and academic guidance,
including faculty and curriculum development and mentoring, to the Arab American
University of Jenin to render the Department of Agriculture functional. We assessed the risk
low because the dollar amount of funding is small.

University Linkages (UPLINK) seeks to increase the capacity of the higher education
system to address public and private sector needs through activities such as faculty and staff
upgrading, curriculum development, faculty/staff/student exchanges, short-term studies, joint
research ventures, revenue generation, and outreach activities. We assessed the risk moderate
because of the difficulty in arranging conferences due to restrictions on Palestinian travel.




                                                                                                 15
                                                                                 Appendix III



Healthier Palestinian Families
                 Strategic Objective 7                        Risk Exposure
 Emergency Medical Assistance Program (EMAP)                    Moderate
 Community Psychosocial Support Project                            Low
 Improved Maternal Child Health (MARAM)                         Moderate
 Child Health Research                                             Low
 Field Epidemiology Training Program                               Low
 Pilot Health Project (Macro)                                      Low
                                        06/30/2002
        Obligations                    Expenditures            Pipeline
        25,050,645                     10,842,427              14,208,218
 Implementing Partners:           CARE International, Save the Children Federation
 PricewaterhouseCoopers, The Johns Hopkins University, Centers for Disease Control and
 Prevention , Macro International

 Program Components and Risk Rating

Emergency Medical Assistance Program (EMAP) plans to sustain and strengthen the
healthcare system in the West Bank and Gaza, in order to maintain the well-being of
Palestinians who are threatened by violence and economic and social dislocation associated
with the Israeli-Palestinian conflict. We assessed the risk moderate because there are many
sub-awards varying from $50,000 to $270,000.

 Community Psychosocial Support Project assists children and youth in dealing with the
 current conflict situation, through appropriate psychosocial interventions. We assessed the
 risk low because of a strong U.S. implementing partner and USAID is in very regular contact
 and receives voluntary weekly updates.

 Improved Maternal Child Health (MARAM) is to improve the accessibility and
 sustainability of quality primary health care services with a focus on women and children
 through clinical training, capacity building, physical refurbishment, provision of equipment,
 surveillance, and health prevention, counseling and education. We assessed the risk moderate
 because some portions of the project have been put on hold.

Child Health Research is to improve the quality of antenatal and postpartum care provided
for mothers and infants. We assessed the risk low because the project is a long term study with
a strong Palestinian implementing partner.

Field Epidemiology Training Program is to assist in building capacity in the areas of
applied epidemiology and to enhance public health practices. We assessed the risk low
because the dollar amount of funding is small.

 Pilot Health Project (Macro) is to improve To improve the quality of antenatal and
 postpartum care provided for mothers and children and to upgrade the research capabilities
 of Palestinian research institutions. We assessed the risk low because the project has been put
 on hold since FY 2001.




                                                                                                  16
                                                                                 Appendix III


Improved Community Services

              Strategic Objective 8                                  Risk Exposure
Community and Rural Services Program                                   Moderate
Village Services Program (VSP)                                         Moderate
Emergency Employment Generation                                        Moderate
Job Opportunities through Basic Services                               Moderate
(JOBS)
                                    06/30/2002
      Obligations                   Expenditures                       Pipeline
       120,472,646                  62,752,825                         57,719,821
Implementing Partners: YMCA, Cooperative Housing Foundation, Catholic Relief
Services, Save the Children Federations, American Near East Refugee Aid, International
Youth Foundation, United Nations Development Program, CARE International, World
Vision, Inc., United Palestinian Appeal Inc.
Program Components and Risk Rating
Community and Rural Services Program (CRSP) awarded funds to five organizations.
These organizations undertook activities in 90 communities in the West Bank and Gaza. The
activities began in late 1999 and resources are being used to construct or rehabilitate basic
community infrastructure, improve access to social services, and develop small-scale
sustainable income and employment generation opportunities. We assessed the risk moderate
because there are many sub-awards, spread out over many sites which at times are difficult to
implement and monitor because of closures. The risk is mitigated by the Mission’s plan to
audit the sub-awards.

Village Services Program (VSP) began in late 2000, during the first months of the Intifada.
Grants were made to seven organizations. This program expands upon the work being done
in the CRSP, adding 85 more communities, with a population of almost 400,000 people. As
with CRSP, VSP is being implemented in needy, under-served, rural communities. There is a
focus on working in clusters of communities, maximizing impact. The types of activities
being implemented are similar to those being carried out under CRSP. We assessed the risk
moderate because there are many sub-awards, spread out over many sites which at times are
difficult to implement and monitor because of closures. The risk is mitigated by the Mission’s
plan to audit the sub-awards.

Emergency Employment Generation (EEGP) began in June 2001. USAID made
awards to five organizations. The EEGP emphasis is on job creation activities. This program
is being implemented in needy communities, both rural and urban, throughout the West
Bank and Gaza. It is expected that this program will increase the total number of Palestinian
communities being served by the overall Community Services Program to 243. We assessed
the risk moderate because there are many sub-awards, spread out over many sites which at
times are difficult to implement and monitor because of closures. The risk is mitigated by
the Mission’s plan to audit the sub-awards.

Job Opportunities through Basic Services (JOBS) began in July 2002. USAID made
awards to six organizations. This program is an employment generation/rural development
program. Interventions include: 1) construction, rehabilitation and extension of educational
facilities; 2) construction of a health and emergency center; 3) development of basic
municipal infrastructure; 4) vocational training and skills development of laborers. We
assessed the risk moderate because there are many sub-awards, spread out over many sites
which at times are difficult to implement and monitor because of closures. The risk is
mitigated by the Mission’s plan to audit the sub-awards.




                                                                                                 17
